                      U.S. Department of Agriculture

                         Office of Inspector General
                                    Northeast Region




             Audit Report

Adequacy of Internal Controls Over Travel
     Card Expenditures Followup

 .




                            Report No. 50601-04-Hy
                                   September 2008
                                     UNITED STATES DEPARTMENT OF AGRICULTURE
                                                    OFFICE OF INSPECTOR GENERAL

                                                            Washington D.C. 20250


September 18, 2008


REPLY TO
ATTN OF:               50601-04-Hy

TO:                    Charles R. Christopherson, Jr.                                    Arlen Lancaster
                       Chief Financial Officer                                           Chief
                       Office of the Chief Financial Officer                             Natural Resources Conservation Service

                       Edward Knipling
                       Administrator
                       Agricultural Research Service

THROUGH: Kathleen A. Donaldson                                                           Diane Gelburd, Director
         Audit Liaison Officer                                                           Operations Management and Oversight
         Office of the Chief Financial Officer                                            Division
          Planning and Accountability Division                                           Natural Resources Conservation Service

                       Steven Helmrich
                       Director, Financial Management
                       Agricultural Research Service

FROM:                  Robert W. Young /s/
                       Assistant Inspector General
                        for Audit

SUBJECT:               Adequacy of Internal Controls Over Travel Card Expenditures Followup


This report presents the results of our audit of the Department of Agriculture’s (USDA) Individually
Billed Travel Card1 Program. As part of this audit, we evaluated USDA’s controls to prevent and
timely detect travel card misuse and compliance with the Office of Management and Budget’s
(OMB) requirements.2 We also assessed the adequacy of corrective actions implemented in response
to our prior recommendations.3 To do this, we reviewed travel card activity transacted from April 1
through September 30, 2006, by Natural Resources Conservations Service’s (NRCS) and Agricultural
Research Service’s (ARS) cardholders and reviewed and evaluated the Departmental guidance for
travel card use as well as the guidance used by NRCS and ARS. During this period, NRCS and ARS
1
    Individually billed travel cards are issued directly to approved USDA employees by the vendor bank. The individual is responsible for using the card
    for authorized travel related purchases and for paying the bill promptly.
2
    OMB Circular A-123, Management’s Responsibility for Internal Controls, Appendix B, “Improving the Management of Government Charge Card
    Program,” dated February 2006.
3
    Adequacy of Internal Controls Over the Individually Billed Travel Card Program, Audit Report No. 50601-05-HQ, issued June 2003.
Charles R. Christopherson, Jr. et al.                                                                                                           2


had over 10,800 cardholders that purchased more than $17.7 million in goods and services on their
travel cards.

We determined that our prior recommendations had been implemented by the Office of the Chief
Financial Officer (OCFO) and that internal controls over the individually billed travel card program
have been strengthened. For example, in response to our recommendation, OCFO restricted travel
card use at vendors that offered services and/or products that are non-travel related. In addition,
OCFO instituted analytical procedures to monitor delinquencies and misuse. We noted that OCFO is
currently implementing the requirements of OMB Circular A-123, Management’s Responsibility for
Internal Controls, Appendix B, “Improving the Management of Government Charge Card Program,”
dated February 2006 by ensuring that credit checks are performed through the contract with the
vendor bank. In addition, OCFO is negotiating for the training requirements to also be a part of the
contract with the vendor bank. NRCS and ARS are in the process of updating their regulations
regarding the use of the individually billed travel cards.

Based on our testing, we did not find the level of misuse evident in the prior audit. We found the
Department and agencies to be taking an active role in monitoring the use of the individually billed
travel cards. In addition, based on data from OCFO, the delinquency rates for both agencies that we
reviewed, NRCS and ARS, have declined. As such, we are not making any recommendations.

BACKGROUND

The Travel and Transportation Reform Act of 1998 (Public Law 105-264) requires Government
employees to use the Government-issued travel card to pay for official expenses, such as hotel rooms
and airline tickets. To implement the requirements of the Act, USDA issued Departmental Regulation
(DR) 2300-001, Government Travel Card Regulation, dated October 20, 2003. DR 2300-001 states
that the use of the travel card is limited to expenses incurred in conjunction with official travel.
USDA currently contracts with Bank of America to provide these charge instruments and travel card
services.4 By accepting the charge card, USDA employees agree to only use it for official travel and
travel related expenses while away from their official duty station for which they will submit for
reimbursement.5 The cardholders are also allowed to obtain cash advances from Automated Teller
Machines (ATM). Cash obtained from an ATM in amounts greater than required for the travel
duration are considered excessive cash advances.

OCFO is the agency within USDA that has direct responsibility for monitoring the use of the travel
charge cards. OCFO’s Credit, Travel, and Grants Policy Division establishes policies and procedures
and monitors the individually billed travel card program. Agency Heads are required to establish
internal procedures to promote the use of the card and to monitor misuse, waste, or abuse of the card.
NRCS’ travel card procedures are documented in a draft NRCS National Bulletin, Use and

4
    There are two types of travel card services: individually billed account and centrally billed account. Our review focused only on individually billed
    accounts.
5
    Section 7e of DR 2300-001 states that an employee must prepare and submit a travel voucher, together with any required receipts, to their approving
    official, within 5 working days after completion of a trip or period of travel or every 30 days if on continuous travel status.
Charles R. Christopherson, Jr. et al.                                                                                                        3


Management of Government Travel Cards, dated December 6, 2006. ARS’ procedures are
documented in USDA Research, Education, and Economics’ Policies and Procedures for the Use of
the Government Travel Card, dated December 11, 2006.

Concerns regarding the propriety of the use of the travel cards are not new; in June 2003, we reported
on weaknesses with USDA’s controls over the travel card program. We found that methods and
measures, such as establishing uniform and consistent review and monitoring processes, had not been
formally prescribed. We also noted that the controls for minimizing misuse were not effective. As a
result, we recommended that OCFO strengthen program controls by restricting the types of purchases
authorized when the travel card is used and by limiting the amount of cash authorized for withdrawal
from ATMs. We also recommended that USDA establish policy to provide the basis for fair,
equitable, and consistent treatment of all employees when misuse is identified.

In February 2006, OMB revised Circular A-123, Management’s Responsibility for Internal Controls,
incorporating an appendix, Improving the Management of Government Charge Card Program (i.e.,
Appendix B). The revisions included requirements for agencies to perform credit worthiness
assessments (i.e., credit checks) for new applicants prior to issuing a card,6 implement a training
program that includes certification and record keeping requirements for program participants (i.e.,
cardholders and charge card managers), and report travel card data on a monthly, quarterly, and
annual basis to OMB. Agencies are required to report data such as the number of cards, the number
of active accounts, and the number of administrative and/or disciplinary actions taken for card
misuse. Agencies are also required to provide narrative descriptions of such things as the process for
monitoring delinquency and the methods used to identify and detect possible card misuse.

OBJECTIVE

The objective of this audit was to followup on corrective actions that OCFO implemented in response
to our prior audit (Audit Report No. 50601-05-HQ). Specifically, we assessed (1) the adequacy of
internal controls at the Department and agency levels to preclude, or detect in a timely manner,
misuse of the individually billed travel cards, (2) the internal controls for the use of individually
billed travel cards by NRCS and ARS employees, and (3) whether individually billed travel cards
were used properly by NRCS and ARS employees. In addition, we reviewed the USDA’s
compliance with Appendix B.

SCOPE AND METHODOLOGY

We performed fieldwork between January 2007 and May 2008. To accomplish our audit objectives
we (1) interviewed appropriate OCFO, NRCS, and ARS officials, (2) reviewed significant internal
control documents and applicable policies and procedures, and (3) examined NRCS and ARS
responses to questions we raised about travel card activity.

6
    Section 846 of the Consolidated Appropriations Act for 2006 requires each agency to assess the credit worthiness of all new travel card applicants
    prior to issuing a card.
Charles R. Christopherson, Jr. et al.                                                                         4


During our prior audit, we detected widespread misuse of travel cards by NRCS employees. OCFO
officials expressed concerns regarding ARS employees use of travel cards. As such, we selected these
agencies for review in this audit.

We analyzed travel card activity for NRCS and ARS from April 1 through September 30, 2006, using
the Bank of America’s Electronic Account Government Ledger System. During this period, NRCS
had over 7,100 cardholders that purchased more than $11.1 million in goods and services on their
travel cards. ARS had over 3,700 cardholders that purchased more than $6.6 million in goods and
services during this period.

We selected a statistical sample of 150 cardholders from each agency (i.e., NRCS and ARS) to
determine whether the controls over the individually billed cards were strengthened. We compared
transaction activity, which included purchases and cash advances, to the travel history and details
(i.e., travel vouchers) found in the National Finance Center travel system to determine whether card
usage related to authorized travel.

We also selected a judgmental sample of NRCS’ and ARS’ cardholders in order to follow up on
previously reported cash advance misuse (excessive ATM withdrawals). Using the April to
September 2006 data, we selected 10 employees from each agency7 that withdrew the highest dollar
amount of cash advances. We determined whether the NRCS and ARS employees obtained cash
using the travel card in excess of what was reasonable for authorized travel. NRCS and ARS
employees had about $ 37,000 and $ 21,500, respectively, in ATM withdrawals over the course of the
6-month period.

We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our conclusions based on our
audit objectives.

AUDIT RESULTS

We determined that OCFO implemented our prior recommendations and strengthened internal
controls over the individually billed travel charge card program. Specifically, OCFO restricted travel
card use at vendors that offered services and/or products that are non-travel related and set stricter
limitations on cash advances. Also, OCFO continued to communicate concerns regarding proper card
use and monitoring to agency travel program coordinators on a monthly basis through the Travel
Program User Group. In addition, OCFO instituted analytical procedures to monitor travel card
delinquencies and misuse. Based on data from OCFO, the delinquency rates for both agencies that
we reviewed, NRCS and ARS, have declined.

7
    The purchases and cash advances totaled more than $618,000 and $530,000 for NRCS and ARS, respectively.
Charles R. Christopherson, Jr. et al.                                                              5


Through our transaction testing, we found that the extent of the misuse reported in the prior audit was
not detected during our current review. As a result, we were able to reduce the amount of substantive
testing that was necessary. We noted that cash advances were in excess of what was authorized;
however, the dollar amount and frequency of the transactions was greatly reduced. In our prior audit,
we noted that a NRCS employee was allowed to obtain almost $24,400 during a 6-month period
though not on authorized travel. During our current review, we found that the 2 highest amounts of
cash advances obtained were $6,700 and $4,800 and were both associated with authorized travel.
Based on our random sample transaction testing of NRCS and ARS, we noted that the majority of
transactions were travel related involving airlines, hotels, restaurants, rental cars, gas, and parking.

Based on our periodic discussions of audit results with NRCS and ARS during the course of our
review, agency officials advised cardholders on the proper use of individually billed travel cards.
Specific topics included that cards should not be used for group meals and cardholders should timely
file travel vouchers. In addition, the agencies have identified and referred cases of card misuse to
their human resource offices for personnel action.

We assessed the USDA’s compliance with February 2006 revision of Appendix B. Through
Appendix B, OMB required Federal agencies to perform credit worthiness assessments (credit
checks) for new applicants, implement a training program that includes certification and record
keeping requirements for program participants (i.e., cardholders and charge card managers), and
report travel card information (e.g., statistical and narrative data) on a monthly, quarterly, and annual
basis to OMB. OCFO added the credit checks as a requirement to the contract with Bank of America.
Currently, USDA is renegotiating with a vendor to continue the travel card program. According to
OCFO officials, training in the proper use of the individually billed travel card will also be included
as part of the contractual responsibilities. Finally, OCFO has implemented periodic reporting
requirements of OMB.

We appreciate the courtesies and cooperation extended to us during this audit.
